No. 20A137

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

REPLY TO APPLICATION FOR
EMERGENCY WRIT OF INJUNCTION

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

PARTIES
Applicants are Harvest Rock Church, Inc. and Harvest International Ministry,
Inc., itself and on behalf of its 162 member Churches in California. Respondent is
Hon. Gavin Newsom, in his official capacity as Governor of the State of California.
RULE 29 DISCLOSURE STATEMENT
Applicants Harvest Rock Church, Inc. and Harvest International Ministry, Inc.
hereby state that they are both nonprofit corporations incorporated under the laws of
the State of California, do not issue stock, and have no parent corporations, and that
no publicly held corporations 10% or more of their respective stock.

ii

TABLE OF CONTENTS
PARTIES………………………………………………………………………………………..ii
RULE 29 DISCLOSURE STATEMENT……………………………………………………ii
TABLE OF CONTENTS……………………………………………………………………...iii
TABLE OF AUTHORITIES…………………………………………………………………..v
INTRODUCTION………………………………………………………………………………1
LEGAL ARGUMENT………………………………………………………………………….5
I.

APPLICANTS HAVE SUFFERED IRREPARABLE HARM FOR 315
DAYS UNDER THE GOVERNOR’S EVER-CHANGING, COLORCODED REGIME OF RELIGIOUS DISCRIMINATION………………………...5

II.

EVERY TIER OF THE OPERATIVE BLUEPRINT IMPOSES
ESPECIALLY HARSH AND DISCRIMINATORY TREATMENT ON
APPLICANTS’ RELIGIOUS WORSHIP SERVICES THAT ARE NOT
IMPOSED ON NONRELIGIOUS GATHERINGS OF LIKE KIND…………….7
A.

The Ninth Circuit’s Refusal To Enjoin The Total Prohibition On
Religious Worship Services In Tier 1 Cannot Be Reconciled With
Catholic Diocese………………………………………………………………...7

B.

The Total Prohibition On Religious Worship Services In Tier 1
Imposes Especially Harsh Treatment On Religious Services
While Imposing No Limits On Numerous Critical Infrastructure
Sectors And More Favorable Limitations On Others……………………...8

C.

Injunctive Relief Is Still Needed As To Tiers 2-4 Because Nothing
In The Ninth Circuit’s Order Below Prohibits The Governor From
Imposing Discriminatory Percentage Caps On Religious Worship
Services, Which Every Tier Already Does…………………………………10
1.

Tier 2 Imposes Less Favorable Percentage Caps On
Religious Worship Services Than Similar Nonreligious
Gatherings……………………………………………………………..13

2.

Tier 3 Imposes Less Favorable Percentage Caps On
Religious Worship Services Than Similar Nonreligious
Gatherings……………………………………………………………..14

iii

3.

Tier 4 Imposes Less Favorable Percentage Caps On
Religious Worship Services Than Similar Nonreligious
Gatherings……………………………………………………………..16

III.

PROHIBITING APPLICANTS FROM ENGAGING IN THE
RELIGIOUS EXERCISE OF SINGING PRAISES TO THE LORD
WHILE PROVIDING A BLANKET EXEMPTION FOR THE MUSIC
INDUSTRY VIOLATES THE FIRST AMENDMENT…………………………..18

IV.

THE GOVERNOR’S INSISTENCE THAT HIS EXPERTS OVERCOME
THE DEMANDS OF THE FIRST AMENDMENT WAS REJECTED IN
CATHOLIC DIOCESE AND SHOULD BE REJECTED HERE……………….20

CONCLUSION…………………………………………………………………………….…..20

iv

TABLE OF AUTHORITIES
CASES
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020)……………………………………………………..……………..15, 18
Calvary Chapel Dayton Valley v. Sisolak,
982 F.3d 1228 (9th Cir. 2020)…………………………………………………………………8
Calvary Chapel Lone Mountain v. Sisolak,
831 F. App’x 317 (9th Cir. 2020)………………………………………………………………8
Elrod v. Burns, 427 U.S. 347 (1976)………………………………………………………….6
Harvest Rock Church v. Newsom, No. 20A94, 592 U.S. ___,
2020 WL 7061630 (U.S. Dec. 3, 2020)………………………………………………………..3
Harvest Rock Church v. Newsom,
977 F.3d 728 (9th Cir. 2020)…………………………………………………………………19
McCullen v. Coakley, 573 U.S. 464 (2014)…………………………………………………..3
Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2020)……………………………………………………………………...passim
South Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020)………………………………………………………………………...17
South Bay United Pentecostal Church v. Newsom, -- F.3d --,
2021 WL 222814 (9th Cir. Jan. 22, 2021)……………………………………….……2, 3, 18
OTHER
Blueprint for a Safer Economy, Current tier assignments as of January 26,
2021, https://covid19.ca.gov/safer-economy/ (last visited January 29, 2021)…………..1
Industry Guidance to Reduce Risk, COVID19.CA.GOV (updated Jan. 26, 2021),
https://covid19.ca.gov/industry-guidance/ ………………………………………………..18

v

INTRODUCTION
California imposes the most severe restrictions on places of worship in the
country. As of the last update on January 26, 2021, 54 Counties in California –
representing 99.9% of the population – are in Tier 1 under the Governor’s Blueprint
for a Safer Economy. The below image – from California’s official Blueprint website
– demonstrates how widespread the Governor’s most severe restrictions are in
California.1
Image 1 – Blueprint Map

The consequence of the sea of purple in the above “color-coded executive edict”
is that indoor worship services are completely prohibited for 99.9% of
Californians, including the vast majority of Applicants’ Churches. (See
Appendix of Exhibits, “App,” Ex. J, Joint Statement, at 1.) Yet, food packing and

Blueprint for a Safer Economy, Current tier assignments as of January 26, 2021,
https://covid19.ca.gov/safer-economy/ (last visited January 29, 2021)
1

1

processing, laundromats, and warehouses have no capacity limits, liquor and grocery
stores have a 50% capacity with no numerical cap, and big box centers, shopping
malls, laundromats, and destination centers have a 25% capacity with no numerical
cap. (See Addendum, “Addendum,” at 2.) For the 0.9% of Californians in Tier 2
Counties, the Governor permits limited indoor worship at 25% capacity or 100
individuals, whichever is less. (App. Ex. J, Joint Statement at 1.) Yet, other similar
congregate gatherings have no numerical limit, including museums, gyms, and
fitness centers. (Addendum at 3.) And, for the lone County designated Tier 3 (0.01%
of the population), religious worship is only permitted at 50% capacity or 200 people,
whichever is less. (App. Ex. J, Joint Statement at 2.) Yet again, in addition to a long
list of other similar congregate gatherings, museums, gyms, fitness centers, family
entertainment centers, cardrooms, and satellite wagering have no numerical cap.
(Addendum at 4.)
For Applicant Churches, this means that the Governor’s color-coded regime of
religious discrimination

completely prohibits indoor religious worship

services, even if it involves 1 person. And, in Tiers 2 and 3, where religious
services have a numerical cap while similar nonreligious gatherings do not, the
Governor prohibits Applicants and their congregants from singing or chanting. (App.
Ex. J., Joint Statement at 4.)2 No similar restriction is placed on singing in the movie,

Following the Ninth Circuit’s decision in South Bay United Pentecostal Church v. Newsom, -- F.3d -, 2021 WL 222814 (9th Cir. Jan. 22, 2021), the panel below issued an injunction against the 100 and
200 person numerical caps in Tiers 2-3. (App. Ex. A at 2.) However, as discussed infra Section II, that
injunction is still constitutionally deficient because critical infrastructure is permitted to operate with
no numerical caps and numerous other industries and sectors have more favorable percentage
limitations.
2

2

music, or entertainment industries. Thus, the Governor’s COVID-19 color-coded
executive edicts have literally banned even “preaching to the choir.” McCullen v.
Coakley, 573 U.S. 464, 476 (2014).
Yet, in these same Counties where indoor religious worship services are
completely prohibited or significantly restricted numerically, there are myriad
exemptions for similar nonreligious gatherings. (See Addendum at 2-5.) Moreover,
the Churches can conduct nonreligious meetings in the same buildings where worship
is banned, including feeding, sheltering, and other social services and “necessities of
life” such as counseling. Irreparable harm is being imposed on Applicants by virtue
of the unconstitutional regime of the Governor’s edicts, and injunctive relief is
warranted now. This immediate threat cannot wait several months or more to be
addressed. This Court gave the lower courts every opportunity to comport their
decisions with the unequivocal mandates of Roman Catholic Diocese of Brooklyn v.
Cuomo, 141 S. Ct. 63 (2020) (“Catholic Diocese”) in the previous GVR Order in the
instant case. Harvest Rock Church v. Newsom, No. 20A94, 592 U.S. ___, 2020 WL
7061630 (U.S. Dec. 3, 2020), and both the district court and the Ninth Circuit below
ran roughshod over that order.
As Judge O’Scannlain pointed out below, the Ninth Circuit’s decision in South
Bay United Pentecostal Church v. Newsom, -- F.3d --, 2021 WL 222814 (9th Cir. Jan.
22, 20201) and in the instant matter below are “woefully out of step” with this
Court’s Catholic Diocese decision. (App. Ex. A at 3 (emphasis added).) As he noted,
A simple, straightforward application of these controlling cases
compels what should be the obvious result here: California’s

3

uniquely severe restrictions against religious worship
services—including its total ban against indoor worship in
nearly the entire state—are patently unconstitutional and
should be enjoined. The court’s refusal to do so in South Bay
cries out for correction.
(Id. (emphasis added).)
Since March 19, 2020 – 315 days ago – California “[a]t the flick of a pen” has
imposed an unconstitutional regime of discriminatory restrictions and prohibitions
on religious worship services. Catholic Diocese, 141 S. Ct. at 69 (Gorsuch, J.,
concurring). Out of those 315 days, California has permitted religious worship
services of any kind for a grand total of 48 days.3 Yet for each of those 315 days,
California has permitted unlimited numbers of people to gather at myriad
nonreligious businesses, establishments, protests, and gatherings. Catholic Diocese,
not to mention the First Amendment itself, plainly prohibits such odious
discrimination against the constitutionally protected exercise of religious worship
services. As the Chief Justice has stated, “[n]umerical limitations of 10 and 25 people,
depending on the applicable zone, do seem unduly restrictive” and “raise serious
concerns under the Constitution.” Catholic Diocese, 141 S. Ct. at 75 (Roberts, C.J.,
dissenting). If 10 and 25 are unduly restrictive and constitutionally incongruous,
there is no world in which a total prohibition on religious worship services can survive
the swift condemnation of this Court. As Judge O’Scannlain noted, “[i]f fixed
attendance caps of 25 or 50 people are too rigid and too extreme to withstand strict

As discussed more fully infra Section I, Applicants were subject to a total prohibition on religious
worship from March 19 to May 25, 2020 (App. Ex. I, V. Compl. ¶84), were subject to a discriminatory
25% or 100 people restriction from May 26 to July 12, 2020 (App. Ex. I, V. Compl. ¶94), and have been
subject to a total prohibition on religious worship since July 13, 2020.
3

4

scrutiny, how can a complete ban not be?” (App. Ex. A at 7 (italics original).) Enough
is enough, and “[s]aying so now will dispel, as well, misconceptions about the role of
the Constitution in times of crisis, which have already been permitted to persist too
long.” Id. at 72 (Gorsuch, J., concurring). The Application should be granted, and the
Governor enjoined from enforcing his blatantly unconstitutional restrictions on
religious worship services.
LEGAL ARGUMENT
I.

APPLICANTS HAVE SUFFERED IRREPARABLE HARM FOR 315
DAYS UNDER THE GOVERNOR’S EVER-CHANGING, COLORCODED REGIME OF RELIGIOUS DISCRIMINATION.
With the exception of the short-lived optimism this Court gave Applicants with

its GVR Order of December 3, 2020 (App. Ex. D), Applicants have been suffering
irreparable and unconscionable injury for 315 days with no relief. The Governor
instituted his unconstitutional regime with his first stay-at-home Order issued on
March 19, 2020. (App. Ex. I, V. Compl. ¶68 and Ex. C.) That Order prohibited all
individuals in the State of California from leaving their homes except to obtain
critical infrastructure services. (Id.) Because Churches and religious worship services
were not included in the critical infrastructure sector, the March 19 Order instituted
a complete prohibition on religious worship services that continued to May 25.
That first total ban on religious worship continued for 66 days. On May 25 the
Worship Guidance limited places of worship to 25% capacity or 100 people, whichever
is less. (App. Ex. I, V. Compl. ¶84 and Ex. J.) No such capacity or numerical restriction
was placed on critical infrastructure sectors. (App. Ex. I, V. Compl. ¶86.) Thus,

5

despite

permitting

religious

worship

to

begin,

it

was

unconstitutionally

discriminatory as it exempted numerous nonreligious gatherings of like kind. And, in
a classic example of an unconstitutional prior restraint, Churches were only
permitted to reopen if they had the express approval of the local officials who had
unbridled discretion to inform a Church was their religious worship activities were
permissible at all. (App. Ex. I, V. Compl. ¶94.)
After 48 days of not totally banning but still discriminating,4 the Governor once
again imposed a total prohibition on religious worship services with the July 13
Public Health Order, which closed Churches in every county on the monitoring list.
(App. I, V. Compl. ¶¶94-95.) That total prohibition continued with the institution of
the Blueprint, which was instituted on August 28, 2020 (App. Ex. J, Joint Statement,
at 1), continued through the December 3 Regional Stay-At-Home Order (see App. Ex
A at 2), and continues to this day under the return to the Blueprint.
Applicants have been subject to unconstitutional restrictions on their
First Amendment right to religious worship for 315 days, and out of those,
267 days have included a total prohibition on religious worship. How long
must COVID-19 keep the First Amendment on a respirator?
“The loss of First Amendment freedoms, for even minimal periods of time,
unquestionably constitutes irreparable injury.” Elrod v. Burns, 427 U.S. 347, 373
(1976). The Governor’s executive decrees here have left “minimal periods of time” in

The Governor claims he tightened the restrictions again because of purported increases in the spread
of COVID-19 in religious services. (Response at 36 n.36.) But, this ignores the fact, which was equally
true in Catholic Diocese, 141 S. Ct. at 66, that there is zero evidence of any outbreak attributed to
Applicants’ worship services. (See App. Ex. M, ¶8.)
4

6

the rearview mirror. In Catholic Diocese, this Court plainly held that thirteen days
and 7 days was too long to permit unconstitutional restrictions to continue. 141 S. Ct.
at 68. If 7 and 13 days is too long to endure unconstitutional restrictions, then there
is no world in which 315 days of restrictions (267 of which involved a total
prohibition) can survive the demands of the First Amendment. As Justice
Gorsuch succinctly put it, this Court “may not shelter in place when the Constitution
is under attack.” 141 S. Ct. at 71 (Gorsuch, J., concurring). California has laid siege
to the First Amendment for almost an entire year. The time has come for this to end.
II.

EVERY TIER OF THE OPERATIVE BLUEPRINT IMPOSES
ESPECIALLY HARSH AND DISCRIMINATORY TREATMENT ON
APPLICANTS’ RELIGIOUS WORSHIP SERVICES THAT ARE NOT
IMPOSED ON NONRELIGIOUS GATHERINGS OF LIKE KIND.
A.

The Ninth Circuit’s Refusal To Enjoin The Total Prohibition On
Religious Worship Services In Tier 1 Cannot Be Reconciled With
Catholic Diocese.

The Ninth Circuit’s decision below explicitly permits the Governor to retain his
total prohibition on Applicants’ religious worship services in Tier 1. (App. Ex. A at 2
(“This injunction does not prevent the State from enforcing . . . the total prohibitions
against indoor worship under Tier 1 of the Blueprint.”).) A total prohibition on
religious worship services cannot be reconciled with Catholic Diocese. This Court held
that it was “hard to see how the challenged regulations can be regarded as narrowly
tailored” because limits of 10 and 25 people were “far more restrictive than any
COVID-related regulations that have previously come before the Court, much tighter
than those adopted by many other jurisdictions hard-hit by the pandemic, and far
more severe than has been shown to be required to prevent the spread of the virus at

7

the applicant’s services.” 141 S. Ct. at 67. If restrictions of 10 and 25 could not possibly
be narrowly tailored, then the Governor’s total prohibitions (which are not
similarly imposed on a host of nonreligious gatherings) cannot be narrowly
tailored. California’s total ban on worship is the most severe in the nation, and this
prohibition has been in effect from May 19 to May 25, and from July 13, 2020, to the
present.
Additionally, the Ninth Circuit was presented with a 50-person restriction on
religious worship services in Calvary Chapel Dayton Valley v. Sisolak, and it similarly
held that such a discriminatory restriction imposed on Churches, but not on other
nonreligious gatherings was not narrowly tailored. 982 F.3d 1228, 1234 (9th Cir.
2020); Calvary Chapel Lone Mountain v. Sisolak, 831 F. App’x 317 (9th Cir. 2020).
Specifically, the court held that “although less restrictive in some respects than the
New York regulations reviewed in Roman Catholic Diocese,” the 50-person cap
disparately imposed on only religious worship services “is not narrowly tailored”
because other gatherings were not subject to the same restriction. Id. See also Calvary
Chapel Lone Mountain, 831 F. App’x at 318 (same).
B.

The Total Prohibition On Religious Worship Services In Tier 1
Imposes Especially Harsh Treatment On Religious Services
While Imposing No Limits On Numerous Critical Infrastructure
Sectors And More Favorable Limitations On Others.

As discussed more fully in Applicants’ Emergency Application (Application at
8-25), the total prohibition on religious worship services is especially harsh when
compared to nonreligious congregate activities in the Critical Infrastructure Sectors.
Under Tier 1 of the Blueprint, food packaging and processing, laundromats, and

8

warehouse, logistics, and warehousing facilities may operate with no numerical or
percentage cap whatsoever. (See Addendum 1, Blueprint Tiers Chart, at 1.)
Grocery stores may operate at 50% capacity with no explicit numerical cap (id.), and
other retail stores (e.g., big box stores such as Walmart, Lowes, Home Depot, etc.)
may operate at 25% capacity with no restriction. (Id.) Yet, despite this favorable
treatment for nonreligious gatherings, the Ninth Circuit explicitly permits the
Governor to continue his discriminatory total prohibition on religious worship
services in Tier 1. (App. Ex. A at 2.) Yet, throughout every Tier, the Governor
continues his exemptions for Critical Infrastructure sectors that have no percentage
or numerical limitations and more favorable percentage caps for other nonreligious
gatherings. Examples include: food packaging and processing, laundromats,
warehouses, grocery stores, liquor stores, retail stores, malls, transportation
facilities, bus stations, train stations, airports, gambling centers, acupuncture
facilities, garages, plants manufacturing chemicals and microelectronics, hardware
stores, repair shops, signage companies, accountants, lawyers, insurance agents, pet
stores, music and film production, abortion clinics, and more. (See Emergency
Application at 12-20.)
This discrimination is virtually identical to that found unconstitutional in
Catholic Diocese.
In a red zone, while a synagogue or church may not admit more than 10
persons, businesses categorized as “essential” may admit as many
people as they wish. And the list of “essential” businesses includes
things such as acupuncture facilities, camp grounds, garages, as well as
many whose services are not limited to those that can be regarded as

9

essential, such as all plants manufacturing chemicals and
microelectronics and all transportation facilities.
Catholic Diocese, 141 S. Ct. at 66. (emphasis added). Moreover, “[t]he disparate
treatment is even more striking in an orange zone. While attendance at houses of
worship is limited to 25 persons, even non-essential businesses may decide for
themselves how many persons to admit.” Id. “[A] large store in Brooklyn . . . could
literally have hundreds of people shopping there on any given day. Yet a
nearby church or synagogue would be prohibited from allowing more than
10 or 25 people inside for a worship service.” Id. (emphasis added) (cleaned up).
The same is true here, although the discrimination is worse. In Tier 1,
hundreds of people may gather in laundromats, warehouses, big-box stores, grocery
stores, manufacturing plants, and transportation locations, but Churches may not
have an indoor worship service if it involves even one person. (Addendum at 2.) Thus,
it is identical to what Justice Kavanaugh noted in Catholic Diocese, while Churches
are totally banned “a grocery store, pet store, or big box store down the street does
not face the same restriction” and “[e]ssential businesses and many non-essential
businesses are subject to no attendance caps at all.” 141 S. Ct. at 73 (Kavanaugh, J.,
concurring). The Ninth Circuit’s decision cannot be reconciled with Catholic Diocese.
C.

Injunctive Relief Is Still Needed As To Tiers 2-4 Because Nothing
In The Ninth Circuit’s Order Below Prohibits The Governor
From Imposing Discriminatory Percentage Caps On Religious
Worship Services, Which Every Tier Already Does.

Though the Ninth Circuit’s decision purports to enjoin the Governor from
enforcing his numerical caps of 100 and 200 in Tiers 2-4 (App. Ex. A at 2), it still

10

violates Catholic Diocese. While this Court suggested that restricting religious
worship services based on the size of the facility might be a less restrictive
alternative to 10 or 25-person caps, 141 S. Ct. at 67, that is not what the Ninth Circuit
ruled. “[I]t does not suffice for a State to point out that, as compared to
houses of worship, some secular businesses are subject to similarly severe
or even more severe restrictions.” Id. at 73 (Kavanaugh, J., concurring)
(emphasis added). Even after enjoining the 100 and 200 person limits in Tiers 2-3,
the Ninth Circuit’s injunction below still permits the Governor to maintain his
unconstitutional and discriminatory regime of against Applicants while exempting
hundreds of other Critical Infrastructure sectors from any capacity or numerical
limitation whatsoever and provides more favorable percentage limitations to
nonreligious gatherings not provided to Applicants’ religious worship services.
“Essential businesses and many non-essential businesses are subject to no
attendance caps at all” demonstrates that Governor has violated the First
Amendment. Id. at 73.
People may gather inside for extended periods in bus stations and
airports, in laundromats and banks, in hardware stores and liquor
shops. No apparent reason exists why people may not gather, subject to
identical restrictions, in churches or synagogues, especially when
religious institutions have made plain that they stand ready, able, and
willing to follow all the safety precautions required of “essential”
businesses and perhaps more besides. The only explanation for treating
religious places differently seems to be a judgment that what happens
there just isn’t as “essential” as what happens in secular spaces. Indeed,
the Governor is remarkably frank about this: In his judgment laundry
and liquor, travel and tools, are all “essential” while traditional religious
exercises are not. That is exactly the kind of discrimination the
First Amendment forbids.

11

Id. at 69 (Gorsuch, J., concurring) (bold emphasis added). Every Tier of the Blueprint
is discriminatory. Tiers 2-4 impose especially harsh treatment on religious worship
that is not imposed on other Critical Infrastructure or nonreligious gatherings.
But for a 50% capacity limitation on grocery stores and a 25% capacity
limitation on big-box stores, shopping centers, malls, destination centers, and swap
meets under Tier 1 (Addendum at 2), the Governor maintains his unconstitutional
and discriminatory regime of against Applicants while exempting hundreds of other
Critical Infrastructure sectors from any capacity or numerical limitation whatsoever
and provides more favorable percentage limitations to nonreligious gatherings not
provided to Applicants’ religious worship services.
Additionally, as discussed more fully in Applicants’ Emergency Application
(Emergency Application at 28-29), Applicants may gather in their same buildings
with an unlimited number of people to provide social services or “necessities of life”
to feed, shelter, or counsel people. (See App. Ex. M at 27 (exempting from the Regional
Stay at Home Order all “[w]orkers who support food, shelter, and social services, and
other necessities of life for economically disadvantaged or otherwise needy
individuals”).) But, the moment Applicants transition from feeding material food to
those in need to feeding their souls with spiritual food, the Governor’s Orders
immediately prohibit them from gathering if even 1 person is present. Whether
Applicants can meet in their buildings is determined by their activities – feeding,
sheltering, socials services, and necessities of life are permitted with no capacity
limits, but worship is banned in Tier 1 and several limited in Tiers 2-4.

12

1.

Tier 2 Imposes Less Favorable Percentage Caps On
Religious Worship Services Than Similar Nonreligious
Gatherings.

In Tier 2, the restrictions (while effecting only a small fraction of the
population of California) still impose discriminatory prohibitions on religious worship
services and will do so when the Governor decrees that certain Counties are
permitted out of Tier 1’s total ban on religious worship services indoors. While the
Ninth Circuit purported to enjoin the Governor from enforcing his strict numerical
caps on Applicants’ Churches in Tier 2 (App. Ex A at 2), its injunction fails to provide
adequate relief because it still facilitates the discriminatory treatment.
In Tier 2, Applicants’ Churches may operate at 25% capacity or 100
individuals, whichever is fewer, but hundreds of exempted Critical Infrastructure
have no capacity limits. (Addendum at 3.) Food packaging and processing,
laundromats, and warehouses may continue to operate with no capacity
limitations or numerical caps. Even after enjoining the 100 person limit in Tier
2, the Ninth Circuit’s injunction below still permits the Governor to maintain his
unconstitutional and discriminatory regime of against Applicants while exempting
myriad other Critical Infrastructure sectors from any capacity or numerical
limitation whatsoever and provides more favorable percentage limitations to
nonreligious gatherings not provided to Applicants’ religious worship services (Id.)
Grocery Stores, “Essential Retail” (e.g., Walmart, Lowe’s, Home Depot, and other “big
box” stores), liquors stores, Shopping Malls, Destination Centers, and Swap Meets
may operate at 50% capacity but with no explicit numerical cap. (Id.) Museums may

13

operate at 25% capacity but without an express numerical limit, and gyms may
operate at 10% capacity with no numerical cap. (Id.) Ten percent capacity of Harvest
Rock Church’s 1250 seats is 125, and 25% is 312. The capacity increases with the
size of the building for every other similar congregate gatherings except
places of worship! Moreover, the same discrimination runs through all four Tiers:
(1) hundreds of Critical Infrastructure activities are exempt, and (2) Applicants have
no capacity limits for non-worship activities while being banned or severely limited in
Tiers 1-4. That is plainly discriminatory and cannot survive Catholic Diocese’s
unequivocal condemnation of similar restrictions.
2.

Tier 3 Imposes Less Favorable Percentage Caps On
Religious Worship Services Than Similar Nonreligious
Gatherings.

In Tier 3, Applicants may operate at 50% capacity or 200 people, whichever is
less. (App. Ex. J, Joint Statement at 2; Addendum Chart at 4.) Food packaging and
processing, laundromats, warehouses, grocery stores, “big box” stores, malls,
destination centers, and swap meets may all operate with any capacity or
numerical restriction of any kind. (Addendum at 4.) Even after enjoining the 200
person limit in Tier 3, the Ninth Circuit’s injunction below still permits the Governor
to maintain his unconstitutional and discriminatory regime of against Applicants
while exempting myriad other Critical Infrastructure sectors from any capacity or
numerical limitation whatsoever and provides more favorable percentage limitations
to nonreligious gatherings not provided to Applicants’ religious worship services.
Museums are permitted 50% capacity but with no numerical limitation. (Id.)

14

Gyms, fitness centers, family entertainment centers, and cardrooms and satellite
wagering centers may all operate at 25% capacity but with no numerical
limitation. (Id.) Thus, even under Catholic Diocese’s suggestion that it may be less
restrictive to tie limitations to the size of the building, the Governor’s Blueprint in
Tier 3 woefully fails to afford Applicants’ Churches equal treatment with countless
other gatherings. Again, the same discrimination runs through all four Tiers: (1)
hundreds of Critical Infrastructure activities are exempt, and (2) Applicants have no
capacity limits for non-worship activities while being banned or severely limited in
Tiers 1-4. As Justice Kavanaugh noted, “under this Court’s precedents, it does
not suffice for a State to point out that, as compared to houses of
worship, some secular businesses are subject to similarly severe or even
more severe restrictions.” Id. at 73 (Kavanaugh, J., concurring) (emphasis added).
Yet, the Ninth Circuit plainly ignored that principle of black letter law and ran
roughshod over the equal treatment the First Amendment demands.
As Justice Alito has succinctly opined, “[t]he idea that allowing [Churches] to
admit 90 worshippers presents a greater public health risk than allowing
[nonreligious gatherings] to operate at 50% capacity is hard to swallow, and the
State’s efforts to justify the discrimination are feeble.” Calvary Chapel Dayton Valley
v. Sisolak, 140 S. Ct. 2603, 2606 (2020) (Alito, J., dissenting). The restrictions in Tier
3 should likewise be hard for this Court to swallow, particularly in light of the binding
mandates of Catholic Diocese, and the Governor’s experts provide no spoon full of
sugar to help that unconstitutional medicine to go down. (Application at 28-28.)

15

3.

Tier 4 Imposes Less Favorable Percentage Caps On
Religious Worship Services Than Similar Nonreligious
Gatherings.

Finally, Tier 4 fares no better than any other Tier in the Blueprint because it
likewise imposes discriminatory restrictions on religious worship services while
exempting virtually every other industry, sector, and gathering. In Tier 4, Applicants’
religious worship services may operate at 50% capacity with no numerical limitation.
Thus, as it true in Tiers 2-3, the Ninth Circuit’s injunction below still permits the
Governor to maintain his unconstitutional and discriminatory regime of against
Applicants while exempting myriad other Critical Infrastructure sectors from any
capacity or numerical limitation whatsoever and provides more favorable percentage
limitations to nonreligious gatherings not provided to Applicants’ religious worship
services. (Addendum at 5; App. Ex. J, Joint Statement at 2.) Food packaging and
processing, laundromats, warehouses, logistics and warehousing facilities, grocery
stores, big-box retail stores, liquor stores, shopping centers, malls, destination
centers, swap meets, and museums may operate without any capacity or
numerical restriction whatsoever. (Addendum at 5.) Gyms and fitness centers,
family entertainment centers, cardrooms, and satellite wagering may all operate at
50% capacity with no numerical restriction. (Id.) Not to sound like a broken record,
but it bears repeating that the same discrimination runs through all four Tiers: (1)
hundreds of Critical Infrastructure activities are exempt, and (2) Applicants have no
capacity limits for non-worship activities while being banned or severely limited in
Tiers 1-4.

16

In Tier 4, where virtually everything is treated more favorably than religion,
it is difficult to imagine a more odious form of discrimination. Indeed, “‘restrictions
inexplicably applied to one group and exempted from another do little to further these
goals and do much to burden religious freedom.” South Bay United Pentecostal
Church v. Newsom, 140 S. Ct. 1613, 1614-15 (2020) (Kavanaugh, J., dissenting).
“What California needs is a compelling justification for distinguishing between (i)
religious worship services and (ii) the litany of other secular businesses that are not
subject to an occupancy cap. California has not shown such a justification.” Id.
at 1615 (emphasis added). California’s failure is equally present today.
In fact, in Tier 4 (as is true in every other Tier of the Governor’s Blueprint),
Justice Gorsuch’s question rings true: “So, at least according to the Governor, it may
be unsafe to go to church, but it is always fine to pick up another bottle of wine, shop
for a new bike, or spend the afternoon exploring your distal points and meridians”
Catholic Diocese, 141 S. Ct. at 69 (Gorsuch, J., concurring), or here, working in a
massive warehouse facility, shopping in a grocery stores, exploring an expansive bigbox retail store, browsing one of California’s massive shopping centers or malls,
taking your family to a destination centers, bartering at a swap meet, and learning
history at a museum (Addendum at 5), “[w]ho knew public health would so
perfectly align with secular convenience?” Catholic Diocese, 141 S. Ct. at 69
(Gorsuch, J., concurring) (emphasis added).
The simple answer is, it doesn’t. In fact,
This is a simple case. . . . Large numbers and close quarters are fine in
[critical infrastructure sectors]. But churches, synagogues, and mosques are

17

banned from admitting more than 50[%] worshippers—no matter how large
the building, how distant the individuals, how many wear face masks, no
matter the precautions at all. In Nevada, it seems, it is better to be in
entertainment than religion. Maybe that is nothing new. But the First
Amendment prohibits such obvious discrimination against the
exercise of religion. The world we inhabit today, with a pandemic
upon us, poses unusual challenges. But there is no world in which the
Constitution permits Nevada to favor Caesars Palace over Calvary
Chapel.
Calvary Chapel Dayton Valley, 140 S. Ct. at 2609 (emphasis added).
III.

PROHIBITING APPLICANTS FROM ENGAGING IN THE RELIGIOUS
EXERCISE OF SINGING PRAISES TO THE LORD WHILE
PROVIDING A BLANKET EXEMPTION FOR THE MUSIC INDUSTRY
VIOLATES THE FIRST AMENDMENT.
Since July 6, 2020 and continuing to this day, the Governor has prohibited

Churches (and only Churches) from engaging in the constitutionally protected
exercise of singing praises to their Lord. The July 6 Guidance for Religious Worship
Services imposes singing and chanting prohibitions only on religious worship
services. (App. Ex. I at 182 (“Discontinue singing (in rehearsals, services, etc.),
chanting, and other practices and performances . . . .”).) Yet, at the same time and for
every day that Applicants have been banned from singing and chanting, the
Governor explicitly permits music, film, and TV production to continue
without limitation. See, e.g., South Bay United Pentecostal Church v. Newsom, -F.3d --, 2020 WL 222814, *19 Appendix (9th Cir. Jan. 22, 2021). See also Industry
Guidance

to

Reduce

Risk,

COVID19.CA.GOV

(updated

Jan.

26,

2021),

https://covid19.ca.gov/industry-guidance/ (last visited January 29, 2021) (“Music, TV,
and film production may resume.”)

18

Such discrimination cannot withstand Catholic Diocese. As Judge O’Scannlain
previously pointed out, many of the same activities the Governor allows without
limitation or restriction involve the same activity as singing a hymn in Church.
Harvest Rock Church v. Newsom, 977 F.3d 728, 736 (9th Cir. 2020) (O’Scannlain, J.,
dissenting) (“Some involve speaking loudly or shouting—for example, on an indoor
television studio set filled with actors projecting lines and directors barking
orders . . . which (unlike singing in a church) the State has permitted to continue.”)
Indeed, there can be no dispute that permitting a music production to operate
indoors without restriction indisputably involves individuals singing songs, playing
instruments, chanting, or otherwise engaging in the precise activity the Governor
prohibits in Churches. The raison d’etre of a music production is to record people
singing songs and making music, which includes wind instruments. The Governor
permits the one and forbids the other. And, the Ninth Circuit held that the Governor
may continue to impose his discriminatory “restrictions on singing and chanting at
indoor worship services.” (App. Ex. A at 2.) Dictating a Church may engage in its
worship while exempting music production is foreign to the First Amendment.
Moreover, the discriminatory treatment of Applicant Harvest Rock Church is
highlighted even further by the favorable treatment afforded to music production but
not religious singing. Harvest Rock Church’s Ambassador Auditorium is a state-ofthe-art concert venue where Pavarotti performed and where the City of Pasadena
frequently hosts symphony orchestras and other musical productions. Under the
Governor’s Orders, Harvest Rock Church is exempt from any capacity or numerical

19

limitation when using its auditorium for music production or presentations. But, if
the same performers in the music production or performance then transitioned to a
religious worship service involving singing, it is totally prohibited. Such an arbitrary
and discriminatory regime cannot withstand First Amendment scrutiny.
IV.

THE GOVERNOR’S INSISTENCE THAT HIS EXPERTS OVERCOME
THE DEMANDS OF THE FIRST AMENDMENT WAS REJECTED IN
CATHOLIC DIOCESE AND SHOULD BE REJECTED HERE.
The Governor’s Response can essentially be boiled down to Catholic Diocese is

inapplicable because our experts have said religious worship is too risky. Indeed, he
claims that his record testimony is “quite different” than that present in Catholic
Diocese. (Response at 38 n.38.) This is simply incorrect. As Applicants demonstrated
previously, this Court has already been presented with this same argument and
rejected it in Catholic Diocese. (See Emergency Application at 25-28.) Here, the
Governor’s experts contend that worship services pose greater risk than other
exempted activities, which is precisely the argument presented in Catholic Diocese.
141 S. Ct. at 78-79 (discussing the testimony of medical amicus that “religious
services are among the riskiest activities”). This Court rejected that as a sufficient
basis for upholding discriminatory restrictions, and so, too, did the Second Circuit.
2020 WL 7691715, at *8. And, as Judge O’Scannlain noted below, much of the expert
testimony “presents assertions about issues far beyond the scientific expertise of an
infectious disease specialist.” (App. Ex. A at 4.)
CONCLUSION
For the foregoing reasons, the injunction should issue.

20

Dated this January 29, 2020.
Respectfully submitted,
Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

21

No. 20A137

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

ADDENDUM

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

TABLE OF BLUEPRINT TIERS AND SELECTED SECTOR RESTRICTIONS
TIER 1

SECTOR/ACTIVITY

Widespread Places of Worship: religious
services in building

RESTRICTIONS
No indoor gathering;
outdoor only

Places of Worship:
nonreligious social services in
building

No building capacity or
numerical limitation

Food packing and processing
(Critical Infrastructure)

No building capacity or
numerical limitation

Laundromats
(Limited Services)

No building capacity or
numerical limitation

Warehouses (Logistics and
Warehousing Facilities)

No building capacity or
numerical limitation

Grocery Stores
(Retail)

50% capacity with no
maximum

Other Essential Retail
(‘big box’ stores)

25% capacity with no
maximum

Shopping Centers (Malls,
Destination Centers,
Swap Meets)

25% capacity with no
maximum

Museums

Outdoor only

Gyms and Fitness Centers

Outdoor only

Family Entertainment Centers

Outdoor only

Cardrooms, Satellite Wagering

Outdoor only

Addendum - 2

TIER 2

SECTOR/ACTIVITY

Substantial Places of Worship: religious
services in building

RESTRICTIONS
25% capacity or 100 people,
whichever is fewer

Places of Worship:
nonreligious social services in
building

No building capacity or
numerical limitation

Food packing and processing
(Critical Infrastructure)

No building capacity or
numerical limitation

Laundromats
(Limited Services)

No building capacity or
numerical limitation

Warehouses (Logistics and
Warehousing Facilities)

No building capacity or
numerical limitation

Grocery Stores
(Retail)

50% capacity with no
maximum

Other Essential Retail
(‘big box’ stores)

50% capacity with no
maximum

Shopping Centers (Malls,
Destination Centers,
Swap Meets)

50% capacity with no
maximum

Museums

25% capacity with no
maximum

Gyms and Fitness Centers

10% capacity with no
maximum

Family Entertainment Centers

Outdoor only

Cardrooms, Satellite Wagering

Outdoor only

Addendum - 3

TIER 3

SECTOR/ACTIVITY

RESTRICTIONS

Moderate

Places of Worship: religious
services in building

50% capacity or 200 people,
whichever is fewer

Places of Worship:
nonreligious social services in
building

No building capacity or
numerical limitation

Food packing and processing
(Critical Infrastructure)

No building capacity or
numerical limitation

Laundromats
(Limited Services)

No building capacity or
numerical limitation

Warehouses (Logistics and
Warehousing Facilities)

No building capacity or
numerical limitation

Grocery Stores
(Retail)

No building capacity or
numerical limitation

Other Essential Retail
(‘big box’ stores)

No building capacity or
numerical limitation

Shopping Centers (Malls,
Destination Centers,
Swap Meets)

No building capacity or
numerical limitation

Museums

50% capacity with no
maximum

Gyms and Fitness Centers

25% capacity with no
maximum

Family Entertainment Centers

25% capacity with no
maximum

Cardrooms, Satellite Wagering

25% capacity with no
maximum

Addendum - 4

TIER 4

SECTOR/ACTIVITY

RESTRICTIONS

Minimal

Places of Worship: religious
services in building

50% capacity with no
maximum

Places of Worship:
nonreligious social services in
building

No building capacity or
numerical limitation

Food packing and processing
(Critical Infrastructure)

No building capacity or
numerical limitation

Laundromats
(Limited Services)

No building capacity or
numerical limitation

Warehouses (Logistics and
Warehousing Facilities)

No building capacity or
numerical limitation

Grocery Stores
(Retail)

No building capacity or
numerical limitation

Other Essential Retail
(‘big box’ stores)

No building capacity or
numerical limitation

Shopping Centers (Malls,
Destination Centers,
Swap Meets)

No building capacity or
numerical limitation

Museums

No building capacity or
numerical limitation

Gyms and Fitness Centers

50% capacity with no
maximum

Family Entertainment Centers

50% capacity with no
maximum

Cardrooms, Satellite Wagering

50% capacity with no
maximum

Addendum - 5

